               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




    Accuracy of the Electronic Facilities
          Management System

                       Audit Report




                                         September 28, 2012

Report Number DA-AR-12-004
                                                                      September 28, 2012

                                                 Accuracy of the Electronic Facilities
                                                                Management System

                                                          Report Number DA-AR-12-004



BACKGROUND:
The Electronic Facilities Management          Sixty-eight percent (or 151 of the 222
System (eFMS) database is the official        errors in our sample) occurred primarily
U.S. Postal Service record for real           because of eFMS system design
property inventory, used to manage all        limitations. Employee input errors, which
property-related projects including           accounted for 32 percent of the errors,
acquisition, disposal, and repairs. Our       occurred because there are no eFMS
objectives were to assess how Postal          mandatory training, policy, and user
Service officials use critical data in        guides.
eFMS to manage facilities, inventory,
and projects; and the accuracy of             A majority of the errors occurred in
facilities’ data in eFMS.                     critical data fields of leased facilities. We
                                              did not find any financial losses due to
WHAT THE OIG FOUND:                           these errors. However, unreliable and
Postal Service officials appropriately        inaccurate data could impact the
used critical data in eFMS to make            agency’s ability to effectively support
decisions on selling owned facilities,        management’s decisions and to assist
terminating leases, managing facility         officials across multiple areas of
operating costs, and reducing facility        operations. Therefore, we consider
inventory square footage. While eFMS          $498.6 million as other impact for data
contained useful data, opportunities          integrity due to inaccurate leased
exist for improving data accuracy for         facilities’ data recorded in eFMS. This
critical fields. Postal Service               amount does not represent financial
employees did not always accurately           losses incurred by the Postal Service,
record critical data fields. Specifically,    but the annual rental costs of leased
95 percent (142) of the 150 leased            properties with incorrect data.
facilities and 7 percent (eight) of the 120
owned facilities reviewed contained at        WHAT THE OIG RECOMMENDED
least one error in critical eFMS data         We recommended management modify
fields collectively identified by Postal      eFMS to address inconsistency in data
Service officials and the U.S. Postal         entry, including the use of drop-down
Service Office of Inspector General.          lists and requiring completion of all data
Also, owned properties smaller than           fields; and annually validate all eFMS
10,000 square feet (SF) often have            data, eFMS training and evaluation of
inaccurate interior and site square           interior and site square footage of
footage measurements.                         owned facilities less than 10,000 SF.

                                              Link to review the entire report
September 28, 2012

MEMORANDUM FOR:             TOM A. SAMRA
                            VICE PRESIDENT, FACILITIES

                                       E-Signed by Michael A. Magalski
                                    VERIFY authenticity with eSign Desktop




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – Accuracy of the Electronic Facilities
                            Management System
                            (Report Number DA-AR-12-004)

This report presents the results of our audit of the Accuracy of Electronic Facilities
Management System (eFMS) (Project Number 12YG006DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Deborah M. Giannoni-Jackson
    Corporate Audit and Response Management
Accuracy of the Electronic Facilities                                                                              DA-AR-12-004
 Management System




                                                     TABLE OF CONTENTS


Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 1 

Use of Electronic Facilities Management System Data to Manage Facilities Inventory
   and Projects .............................................................................................................. 2

Accuracy of Electronic Facilities Management System Data........................................... 3 

   Critical Data Elements ................................................................................................. 3 

   Other Electronic Facilities Management System Data Discrepancies ......................... 5 

   System Design Limitations and Employee Input Errors ............................................... 6 

   System Design Limitations .......................................................................................... 6 

   Employee Input Errors ................................................................................................. 7 

Facility Space Surveys Not Conducted on Owned Facilities Under 10,000 Square Feet 8 

Recommendations .......................................................................................................... 9 

Management’s Comments .............................................................................................. 9 

Evaluation of Management’s Comments ....................................................................... 10 

Appendix A: Additional Information ............................................................................... 11 

   Background ............................................................................................................... 11 

   Objectives, Scope, and Methodology ........................................................................ 11 

   Prior Audit Coverage ................................................................................................. 12 

Appendix B: Other Impacts ........................................................................................... 13 

Appendix C: Management’s Comments ........................................................................ 14 
Accuracy of the Electronic Facilities                                                               DA-AR-12-004
 Management System




Introduction

This report presents the results of our audit of the Electronic Facilities Management
System (eFMS) (Project Number 12YG006DA000). Our objectives were to assess how
U.S. Postal Service officials use critical data in eFMS to manage facilities, inventory,
and projects; and the accuracy of facilities data in eFMS. This self-initiated review
addresses operational risk. See Appendix A for additional information about this audit.

The eFMS database is the official Postal Service record for real property inventory and
the management system for administering all property-related projects including
acquisition, design, construction, disposal, repairs, health and safety mitigation, and
property inspections. In addition, eFMS is used to manage all aspects of the Postal
Service’s property leasing program, including the preparation of leases, making tax
payments, and outleasing 1 /subleasing excess space. The eFMS database site is
administered by the Postal Service’s Facilities and Information Technology
departments.

Conclusion

Postal Service officials appropriately used critical data in eFMS to decide on selling
owned facilities, terminating leases, managing facility operating costs, and reducing
facility inventory square footage. While the eFMS contains useful data, opportunities
exist for improving data accuracy for critical fields. Postal Service employees did not
always accurately record critical data fields in the eFMS. Specifically, 95 percent (142)
of the 150 leased facilities and 7 percent (eight) of the 120 owned facilities reviewed
contained at least one error in an eFMS data field collectively identified as critical by
Postal Service officials and the U.S. Postal Service Office of Inspector General (OIG).
Also, owned properties smaller than 10,000 square feet (SF) often have inaccurate
interior and site square footage measurements. Sixty-eight percent (151) of the 222
errors in our sample occurred primarily because of system design limitations in eFMS.
Employee input errors, which accounted for 32 percent (71) of the errors, occurred
because there are no eFMS mandatory training, policy, and user guides. Incorrect or
missing data in these fields could result in missing opportunities to make optimal
decisions regarding real property.




1
 Outleasing occurs when the Postal Service acts as a landlord and leases space in an owned property to a third
party.
                                                        1
Accuracy of the Electronic Facilities                                                                   DA-AR-12-004
 Management System



Use of Electronic Facilities Management System Data to Manage Facilities
Inventory and Projects

Facilities Service Office (FSO) officials used several eFMS reports to manage property
inventories, including the Property Detail report, Expiring Lease report, Purchase
Options report, and Maintenance History report. These reports contain critical data
fields in eFMS that officials use to monitor purchase options and maintenance
responsibility for the leased properties and prepare node studies in the facility
optimization program. 2

   The Property Detail report, which includes the ‘term years’ data field and interior and
    site square footage measurements provides a quick 'snapshot' view of a property.
    The interior and site square footage measurements are used for facility and portfolio
    maintenance, including valuing facility costs like maintenance and utilities. When
    determining whether a facility can accept operations from another facility, the Postal
    Service must know how much space is available. Inaccurate space measurements
    can add time to the process while the correct data are obtained.

   The Expiring Lease report identifies leases expiring within the next 24-36 months,
    which indicates when lease negotiations should begin. This report contains the
    ‘expiration date’ field, which identifies when the current lease will expire. This report
    also contains the ‘term years’ data field. Incorrect data in the ‘expiration date’ field
    could result in the Postal Service not having adequate time to conduct lease
    negotiations and realizing a less favorable cost benefit on the newly negotiated
    lease.

   The Purchase Option report identifies leases with purchase options. The report
    indicates whether a lease contains a purchase option; 'Yes' responses in the
    ‘purchase option’ data field result in the facility’s inclusion on this report. If the field is
    left blank in the eFMS, this could result in missed opportunities to purchase leased
    facilities at favorable costs.

   The Maintenance History report allows staff to ascertain what maintenance or repair
    issues have occurred at the property. While this report does not identify which party
    was responsible for the repairs, staff members review the report before lease
    negotiations to identify the physical condition of the property and to determine
    whether the proposed lease cost is fair.

In the past, FSO managers used the Facilities scorecard to track progress toward their
departmental goals; however, the Delivering Results, Innovation, Value and Efficiency
(DRIVE) initiatives were initiated in fiscal year 2012. Like the scorecard, success in
reaching these goals is measured using data from eFMS; therefore, the data contained
in these fields must be accurate.

2
 Facility optimization is the program used to evaluate properties for possible consolidation or closure to reduce the
number of facilities across the country.


                                                           2
Accuracy of the Electronic Facilities                                                    DA-AR-12-004
 Management System



Accuracy of Electronic Facilities Management System Data

Postal Service employees did not always accurately record critical data fields in the
eFMS. Specifically, 95 percent (142) of the 150 leased facilities and 7 percent (eight) of
the 120 owned facilities reviewed contained at least one error in an eFMS data field
collectively identified as critical by Postal Service officials and the OIG (see Chart 1). In
addition, 36 of 77 non-critical data fields contained an error rate of 33 percent because
of no data or incorrect data. Each property record in eFMS as of March 13, 2012,
contained at least one data error.

                                        Chart 1. Facility Error Analysis

                              Leased Facilities            Owned Facilities
                                With Errors                  With Errors

                           Number     Number Number                     Number
                               of    of Leased    of                      of
                            Errors              Errors                  Owned
                                   0         8        0                     112
                                   1        88        1                       5
                                   2        43        2                       2
                           3 or             11        3                       1
                           more
                           Total           150 Total                          120
                          Source: OIG Analysis. Postal Service eFMS as of August 2012.

Critical Data Elements

Of the 150 statistically selected lease records, 142 (95 percent) with annual rents of
about $5.3 million contained an error or multiple errors for the nine critical data elements
as shown in Chart 2. Employees entered the correct data for the field of ownership.




                                                      3
    Accuracy of the Electronic Facilities                                                                  DA-AR-12-004
     Management System



                  Chart 2. Critical Data Field Error Analysis for Leased Facilities

                                                                                        Total Leased
                                                                        Total             Samples                 Error
  Critical Data Field            Data Field Description                 Errors           Reviewed                 Rate
 Purchase Option                 Indicates whether a                        139                   150             92.67%
                                 lease contains a
                                 purchase option.
 Site Square Footage             Shows the square                               27                     150         18.00%
                                 footage of the whole
                                 property, including the
                                 building.
 Term Years                      Shows the number of                            15                     150         10.00%
                                 years the current lease
                                 is effective.
 Lease Copy in eFMS              Refers to the scanned                           8                     150           5.33%
                                 lease copy retained as a
                                 link in the
                                 Images/Documents tab
                                 of the property record in
                                 eFMS.
 Maintenance                     Indicates who is                                9                     150           6.00%
 Responsibility                  responsible for
                                 maintenance on the
                                 facility.
 Interior Square                 Shows the interior                              6                     150           4.00%
 Footage                         square footage of the
                                 building.
 Annual Rent 3                   Shows the amount of                             4                     150           2.67%
                                 rent paid each year for
                                 the facility.
 Property Status                 Shows the current status                        1                     150           0.67%
                                 of the facility: active,
                                 terminated, or planned.
 Expiration Date                 Shows the date the                              1                     150           0.67%
                                 current lease expires.
 Ownership                       Shows to whom the                               0                     150           0.00%
                                 building belongs.
 Total Errors                                                                 210
Source: OIG analysis. Postal Service eFMS as of August 2012.




    3
      The Postal Service has taken corrective action to correct the system design issue related to graduated rents during
    the audit. The annual rent field will now display the aggregate rental amount paid for the current year, which has been
    redefined as a year starting the date the lease is made active.


                                                              4
Accuracy of the Electronic Facilities                                                                   DA-AR-12-004
 Management System


Of the 120 statistically selected owned facilities records, eight (7 percent), with a cost
basis of about $10 million, contained an error or multiple errors for four critical data
elements as shown in Chart 3. Employees entered the correct data for the field of
ownership.

              Chart 3. Critical Data Field Error Analysis for Owned Facilities

                                                                      Total Owned
                                                      Total             Samples                  Error
                Critical Data Field                   Errors           Reviewed                  Rate
            Site Square Footage 4                              7               120                5.83%
            Interior Square Footage                            2               120                1.67%
            Maintenance                                        2               120                1.67%
            Responsibility
            Property Status                                     1                    120           0.83%
            Ownership                                           0                    120           0.00%
            Total Errors                                       12
          Source: OIG analysis. Postal Service eFMS as of August 2012.
 
Other Electronic Facilities Management System Data Discrepancies

In addition, 36 of 77 'other' 5 data fields contained an error rate of 33 percent 6 because
of no data or incorrect data. Four of these fields had error rates of more than 95 percent
and accounted for one-third of the errors we identified. Relevant errors were found in
the following fields:

   One field relating to the flood plain 7 had an error rate of 100 percent. This field is
    important because it relates to the physical condition of the facility; the Postal
    Service should be aware whether facilities are located in flood plains so it can take
    precautions to avoid significant damage to assets.

   Three fields — ‘last update date’, 8 ‘last measure date’, 9 and ‘building built year’ 10 —
    had error rates of between 95 and 99 percent. The ‘last update’ date and ‘last
    measure’ date alert the user to the possibility that the information in the data fields
    might be outdated. The ‘building built’ year implies the physical condition of the
    facility; it might indicate whether the facility could contain asbestos or lead-based
    paint, or whether it is likely meeting building code requirements.


4
  Five of these errors occurred at properties of less than 10,000 interior SF and two occurred at properties of more
than 10,000 interior SF.
5
  We judgmentally selected 77 ‘other’ fields in eFMS that had a high level of no data or incorrect data in the database.
These fields were not specifically identified as critical data, however, can affect reporting and decision making.
6
  There were 1,440,087 errors of 4,358,412 data entries (36 columns multiplied by 121,067 rows).
7
  The ‘FMT_Flood_Plain_Code’ field records the flood plain code for the facility.
8
  The ‘SATT_Last_Update_Date’ shows the date the facility record was last updated.
9
  The ‘FMT_Last_Measure_Date’ records the date the building was last measured.
10
   The ‘FMT_Bldg_Built_Yr’ records the year the building was constructed.


                                                           5
Accuracy of the Electronic Facilities                                                  DA-AR-12-004
 Management System


In addition to the 77 'other' fields, there were at least 21 different ways to categorize a
facility in the ‘unit name data field’. Variations for a modular building Main Post Office
include ‘Main Office (MO)/Mod Bldg,’ ‘Main Office/Modular,’ ‘Main Office/Modular Bldg,’
‘MO Modular,’ ‘MO Modular Bldg,’ and ‘MO Modular (Building).’ Inconsistencies also
occurred in the ‘postmaster name’ field, including entries containing only a telephone or
fax number rather than a name.

System Design Limitations and Employee Input Errors

System design limitations contributed to 151 of the 222 errors (or 68 percent) and
employee input errors accounted for 32 percent of the errors in the leased and owned
facility records reviewed (see Chart 4).

                               Chart 4. Number of Error Occurrences

                                                             Number Percentage
                               Cause                         of Errors of Errors
                       System Design                               151       68%
                       Employee Input                               71       32%
                        Source: OIG Analysis. Postal Service eFMS as of August 2012.

System Design Limitations

System design limitations occurred because eFMS allows free-form entry of information
and does not require an entry. These errors included data fields that were left blank.

   The majority of those errors (133 of 151) were in the ‘purchase option’ field. If the
    field contains a ’Yes,’ it is included in the Purchase Option report reviewed by
    management to identify cost-benefit opportunities. If the field is blank, the Postal
    Service could miss an opportunity to purchase leased facilities when financially
    beneficial. If the system was designed to require the user to enter information into
    all fields before exiting the system, blank fields would no longer occur. In addition,
    drop-down boxes could be used in the ‘purchase option’ field to ensure users enter
    either a ‘Yes’ or ‘No’ response.

   The remaining errors consisted of 15 in the ‘term years’ data field and three in the
    ‘annual rent’ data field. The ‘term years’ field shows the number of years the current
    lease is effective and is included in many reports used by staff. The ‘annual rent’
    field in eFMS does not update to reflect the new annual rent expense. Facilities
    officials stated that escalated rents (cost increases over the term of the lease) were
    not considered when the system was developed. If personnel rely on data in the
    annual rent field when escalated rent exists on the lease, it could negatively impact
    decisions made on the facility.

   All errors in the 36 'other' fields analysis were due to system design limitations.
    While the fields are free-form entry, there are recognized 'allowable' responses for


                                                         6
Accuracy of the Electronic Facilities                                              DA-AR-12-004
 Management System


      many of these fields. For instance, the ‘Handicap Code’ field recognizes six
      'allowable' values: ‘*’ to indicate a not applicable (N/A); ‘1’ to indicate Customer
      Access; ‘2’ to indicate Customer Access/Employ Rest Waive/Mod; ‘3’ to indicate
      Customer Access/Employ Rest Exempt; ‘4’ to indicate Non-Accessible, Waiver
      Requested; and ‘7’ to indicate Employee Access/Customer Waive/Mod. We
      identified more than 69,000 errors in this data field where entries did not match any
      of these six responses. A drop-down box could be used to ensure users input one of
      these 'allowable' responses. In addition, the system should be designed to reject
      'placeholder' entries, like using a succession of zeros instead of an actual number.

     The Postal Service has taken corrective action to correct the system design issue
      related to graduated rents. The ‘annual rent’ field will now display the aggregate
      rental amounts paid for the current year, which has been redefined as a year starting
      from the date the lease is made active. As corrective action was taken during the
      audit, we made no recommendations related to this issue.

Employee Input Errors

Employee input errors, which accounted for 32 percent (or 71 of the 222 errors),
occurred because:

     There are no policies and guides available for Facilities personnel to use when
      inputting data into eFMS.

     There is no policy requiring officials to validate data entered into eFMS.

     There is no mandatory training. Facilities officials offered a formal training in 2004
      before Facilities Management System for Windows (FMSWIN) 11 was converted to
      eFMS.

The majority of the employee input errors (34 of 71) occurred in the ‘site square footage’
field. The remaining errors occurred in the ‘maintenance responsibility’ field (11);
‘purchase option’ field (six); ‘interior square footage’ field (eight); ‘property status’ field
(two); ‘annual rent’ field (one); and the ‘expiration date’ field (one). Eight errors occurred
where the scanned copy of the lease was not available in eFMS.

Because employees did not accurately record or complete contract data in eFMS,
officials may not have sufficient information or may have spent additional time compiling
information to make decisions that may benefit the Postal Service. A majority of the
errors occurred in critical data fields of leased facilities. These errors impact the data
integrity of leases that would require management to re-evaluate the validity of the data.
We did not find any financial losses due to the errors. However, unreliable and
inaccurate data could impact the agency’s ability to effectively support management’s
decisions and to assist officials across multiple areas of operations and FSOs.


11
     FMSWIN was the predecessor to eFMS.


                                                7
Accuracy of the Electronic Facilities                                                                 DA-AR-12-004
 Management System


Therefore, we consider $498.6 million as other impact for data integrity 12 due to
inaccurate leased facilities data recorded in eFMS. We did not find financial losses due
to these errors and this amount does not represent actual losses incurred by the Postal
Service, but rather the annual rent costs of leased properties with incorrect data
recorded in eFMS. See Appendix B for our calculation of the other impact.

Facility Space Surveys Not Conducted on Owned Facilities Under 10,000 Square
Feet

Postal Service-owned properties smaller than 10,000 SF often have inaccurate space
measurements in the interior and site square footage columns in eFMS. Across the
nation, the Postal Service owns 8,616 properties, with 56 percent being smaller than
10,000 SF. Of the 120 owned facility samples we reviewed, 68 were smaller than
10,000 interior SF, and we identified six errors in the ‘interior square footage’ and ‘site
square footage’ fields for five of those properties.

The Postal Service has made a business decision to survey facilities of more than
10,000 SF. Facilities management stated that surveying facilities under 10,000 SF
would not provide as great of an opportunity in their optimization and consolidation
efforts. In addition, they stated it would be cost-prohibitive to physically survey facilities
below this threshold.

For facilities of less than 10,000 SF, Facilities management sends self-certification
forms to installation heads to validate the space measurements of their facility. Because
installation heads are not trained to measure space, there is no assurance that square
footage information is correct. Facilities personnel conduct on-site visits at Postal
Service facilities that are necessary to complete other duties, such as reviewing
completed repairs or validating facility compliance with regulations. These visits provide
an opportunity to verify facility measurements without incurring additional costs at the
small facilities. Facilities of less than 10,000 SF are often measured by 'historical' values
added when the building was built or purchased. It is important that the Postal Service
has accurate measurements for all facilities, as these data elements are crucial to their
optimization and consolidation efforts. These data elements are also important to
accomplishing Facilities’ DRIVE Initiative goals, as one of these goals is to reduce total
square footage.




12
  Data that are used to support management decisions but are not fully supported or completely accurate. This can
be the result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.


                                                          8
Accuracy of the Electronic Facilities                                          DA-AR-12-004
 Management System



Recommendations

We recommend the vice president, Facilities:

1. Modify the Electronic Facilities Management System to address inconsistency in
   data entry, including the use of drop-down lists and requiring completion of all data
   fields.

2. Develop a plan to require the annual review and validation of all Electronic Facilities
   Management System data by Facilities Service Office personnel.

3. Develop and administer training for using the Electronic Facilities Management
   System.

4. Establish a process to evaluate the interior and site square footage of owned
   facilities of less than 10,000 square feet while conducting other administrative duties
   during site visits.

Management’s Comments

Management agreed with recommendations 1, 2, and 3 and disagreed with
recommendation 4. Overall, they agreed that eFMS had inconsistent data with
incomplete fields in many cases. Additionally, they appreciated our recommendations
that addressed the inaccuracies identified.

Regarding recommendation 1, management agreed that adding prompts or taking
corrective measures requiring completion of data fields would eliminate inconsistency in
data entry. However, management stated that they will complete a business needs
assessment to obtain the cost and timing associated for these modifications. In
separate correspondence, management stated this action would be completed by
December 31, 2012. With regard to recommendation 2, management agreed to perform
an initial review and validation of eFMS data by August 30, 2013. Management agreed
with recommendation 3 and will continue to provide training to Facilities personnel who
possess data input responsibility.

Management disagreed with recommendation 4 and does not believe, at this time, that
establishing a process to measure buildings smaller than 10,000 SF is economically
beneficial due to the associated costs and necessary resources. However, management
clarified their response in subsequent correspondence and stated that, in order to
ensure accuracy for the 4,496 buildings under 10,000 SF, they will pull a sample of 100
buildings for their building inspectors to measure space. The results from the sample
would determine whether all buildings are re-measured and this action will be
completed by March 31, 2013. See Appendix C for management’s comments in their
entirety.




                                             9
Accuracy of the Electronic Facilities                                       DA-AR-12-004
 Management System


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3 and corrective actions should resolve the issues identified in the report. Management
disagreed with recommendation 4; however, their clarifying response to sample and
verify the square footage of buildings and compare results to eFMS information is
responsive.

The OIG considers recommendations 1 through 3 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service's follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                          10
Accuracy of the Electronic Facilities                                                                  DA-AR-12-004
 Management System


                                 Appendix A: Additional Information

Background

The eFMS database is the official Postal Service record for real property inventory and
the management system for administering all property-related projects including
acquisition, design, construction, disposal, repairs, health and safety mitigation, and
property inspections. In addition, eFMS manages all aspects of the Postal Service’s
property leasing program including the preparation of leases, making tax payments, and
outleasing/subleasing excess space. The eFMS database site is administered by the
Postal Service Facilities and Information Technology departments.

The Postal Service uses eFMS to manage about 32,967 facilities; 24,049 are leased,
8,616 are owned, and the remaining 302 are considered federal or General Service
Administration properties. The Postal Service currently pays $907,995,311 annually for
leased facilities.

The eFMS applications are used by personnel at Postal Service Headquarters, FSOs,
areas of operation, and district offices. The eFMS data are used to update the Facility
Database (FDB), 13 Enterprise Data Warehouse (EDW), 14 and General Ledger; and as a
basis for monitoring the Postal Service Facilities program status. The outlease/sublease
program is a revenue source for the Postal Service. Additional functionality allows the
updating of facility addresses using the facility profile data. In addition, the Address
Management System (AMS) 15 updates the location of the facility, name of the
installation head, and FDB data, which are managed by the Marketing updates
information in the eFMS.

Objectives, Scope, and Methodology

Our objectives were to assess how Postal Service officials use critical data in eFMS to
manage facilities inventory and projects and the accuracy of facilities data contained in
eFMS. To accomplish our objectives, we:

    Selected a random sample of 150 leased and 120 owned properties from the 32,967
     properties the Postal Service manages nationwide. At each on-site fieldwork
     location, we also randomly selected 40 property files (20 leased and 20 owned) to
     perform existence testing.

    Interviewed management at the three FSOs to determine how Postal Service
     officials use the critical data in eFMS to manage the facilities portfolio.


13
   FDB serves as a centralized source of postal facility information gathered from other data sources across the
country. It retains static information about each facility including name, address, and physical characteristics.
14
   The goal of the EDW is to provide a single repository for managing all of the Postal Service's data assets and to
provide accurate data across organizations to a wide variety of users.
15
   AMS is an integrated database considered to be the official source of address information and is located at the San
Mateo Integrated Business Solutions Center.


                                                         11
Accuracy of the Electronic Facilities                                                DA-AR-12-004
 Management System


   Interviewed Facilities Headquarters and field office personnel to identify which fields
    they considered critical within eFMS. Facilities officials identified six critical data
    fields: site square footage, term years, maintenance responsibility, interior square
    footage, annual rent, and ownership. We identified four other fields as critical:
    purchase option, lease copy in eFMS, expiration date, and property status.

While most of these critical fields relate only to leased facilities, we identified five critical
data fields that also cover owned properties:

   Property Status.
   Ownership.
   Maintenance Responsibility.
   Interior Square Footage.
   Site Square Footage.

We conducted this performance audit from November 2011 through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 5, 2012, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by comparing the selected
critical data elements to lease documentation and physical property records. We
determined the eFMS data were not sufficiently reliable for management's use. Our
audit results report on the inadequacy of the data in eFMS.

Prior Audit Coverage

There are no prior audits or reviews related to the objectives of this audit.




                                               12
Accuracy of the Electronic Facilities                                                                  DA-AR-12-004
 Management System


                                        Appendix B: Other Impacts


            Recommendation                      Impact Category                        Amount
                  1                              Data Integrity 16                     $498,601,014

We performed a stratified sample that allowed us to extrapolate results from a
universe of 32,967 properties as of March 13, 2012. We divided the universe into
two strata: 24,049 leased properties with annual lease payments of $907,995,311 and
8,616 owned properties with a book value of $23,117,696,761. Our sample size resulted
in 120 owned properties valued at about $267,387,869 and 150 leased properties with
about $6,508,656 in annual rents.

We found that Postal Service employees did not always accurately record the ‘critical
data’ fields in the eFMS for 142 leased facilities’ records with annual rents totaling
$5,347,830 and eight owned facilities’ records with a cost basis of about $10 million. At
a 95 percent confident level, we projected that 22,766 leased properties and 574 owned
properties contained inaccurate data in eFMS. We did not find any financial losses due
to these errors.

The majority of the errors we identified in the sample were contained in the leased
properties; therefore, we projected the $5,347,830 value of annual rent to determine the
impact of data integrity from the total universe of leased facilities. At a 90 percent
confidence level, we projected that at least $498,601,014 value of annual rents
associated to leased property records that contained inaccurate data recorded in eFMS.

This amount does not represent the value of what is incorrect or actual losses incurred
by the Postal Service but rather the annual rent costs of leased properties with incorrect
data recorded in eFMS.




16
  Data Integrity is the validation of the consistency, accuracy, and completeness of data used by the Postal Service.
Data Integrity errors occur when data used to support management decisions are not fully supported or completely
accurate. This can be the result of flawed methodology; procedural errors; or missing or unsupported facts,
assumptions, or conclusions.


                                                         13
Accuracy of the Electronic Facilities                            DA-AR-12-004
 Management System


                             Appendix C: Management’s Comments




                                            14
Accuracy of the Electronic Facilities        DA-AR-12-004
 Management System




                                        15
